USAID
OFFICE OF INSPECTOR GENERAL



      Audit of the Management Discussion and Analysis
      Section of USAID’s Fiscal Year 2000 Financial
      Statements (Audit Report Number 9-000-02-001-P)




Audit Report (Report No. 9-000-02-001-P)
  December 13, 2001




                                             U.S. Agency for
                                International Development
U.S. AGENCY FOR
 INTERNATIONAL
 DEVELOPMENT

Office of Inspector General

December 13, 2001


MEMORANDUM

FOR:               M/CFO, Michael T. Smokovich
                   DAA/PPC, Kenneth G. Schofield

FROM:              IG/A/PA, Director, Dianne L. Rawl

SUBJECT:           Audit of the Management Discussion and Analysis Section
                   of USAID’s Fiscal Year 2000 Financial Statements (Audit
                   Report Number 9-000-02-001-P)

This memorandum is our report on the subject audit. In finalizing the report,
we considered your comments to our draft report. Those comments are
included, in their entirety, as Appendix II.

This report contains one recommendation to address weaknesses identified
during this audit. We believe that this recommendation will improve
USAID’s internal controls over the performance measures contained in the
Management Discussion and Analysis (MD&A) section of USAID's future
financial statements. Based on the information provided by USAID's
management officials, we do not consider the recommendation to have
received a management decision. Please provide within 30 days any
additional information related to actions planned or taken to implement the
recommendation.

I want to express my sincere appreciation for the cooperation and
courtesies extended to my staff during this audit.




                                                                          1
2
Table of   Summary of Results                                   3
Contents
           Background                                           4

           Audit Objectives                                     5

           Audit Findings                                  5

           Management Comments and Our Evaluation               10

           Appendix I - Scope and Methodology              12

           Appendix II - Management Comments               14

           Appendix III – Prior OIG Audits of R4 Reports        16




                                                                     3
Summary of   Office of Management and Budget (OMB) Bulletin No. 01-02, "Audit
Results      Requirements for Federal Financial Statements," dated October 16, 2000,
             requires auditors, at a minimum, to assess internal controls related to
             performance measures contained in the Management Discussion and
             Analysis (MD&A). The Office of Inspector General (OIG) also sought to
             determine whether USAID prepared its MD&A for fiscal year 2000 in
             compliance with applicable laws and regulations. (See pages 4-5.)

             While the OIG found that the MD&A for fiscal year 2000 generally
             complied with applicable laws and regulations, we identified the following
             two areas which we believe should be brought to management’s attention.

             •      The fiscal year 2000 MD&A did not meet all of the requirements of
                    OMB Bulletin No. 97-01, "Form and Content of USAID's Financial
                    Statements" dated October 16, 1996, as amended. (See pages 5-9.)

             •      Performance data presented in the MD&A may be inaccurate or
                    incomplete because they were extracted from internal reports that,
                    according to prior OIG audits,1 had these problems. (See pages 9-10.)

             To accomplish our objectives, we selected and reviewed a sample of
             Agency-level performance indicators that USAID officials had informed us
             would be reported in the MD&A. However, near the end of the period of
             time available for our review of these indicators, USAID officials informed
             us that they no longer intended to report agency-level indicators in the
             MD&A. Instead, they planned and reported on operating-unit-level
             indicators. (See page 12.)

             Because of this change of plans, we were unable to perform a detailed
             review of the internal controls applicable to the new set of performance
             measures selected for the fiscal year 2000 MD&A. Although we were not
             able to verify the accuracy or completeness of the specific indicators
             selected in the MD&A, we had previously audited and reported on
             indicators similar to those on which the MD&A was based. Our audits had
             shown that performance data reported for these indicators may have been
             inaccurate or incomplete and that data quality limitations were not always
             disclosed. (See pages 9-10.)


             1
                 See Appendix III for a list of these audits.




                                                                                      4
             In addition, we noted that the reports from which performance data were
             selected for the fiscal year 2000 MD&A generally reported performance
             achieved or recognized in fiscal year 1999 or earlier and, therefore, did not
             reflect the results of financial operations during fiscal year 2000. These
             deficiencies occurred because USAID's Office of the Chief Financial
             Officer, in collaboration with the Bureau for Policy and Program
             Coordination, did not have an adequate plan to ensure that the MD&A
             would meet OMB’s requirements. We have recommended the
             development of a detailed plan. (See pages 8-9.)


Background   The Government Management Reform Act of 1994 requires that USAID
Background
             annually submit audited financial statements to OMB and appropriate
             congressional committees. Pursuant to that Act, OMB issued Bulletin
             No. 97-01, which defines the form and content of USAID's financial
             statements, including the section entitled, Management Discussion and
             Analysis (MD&A). According to OMB Bulletin No. 97-01, the MD&A
             should at a minimum,

             •   describe an agency's mission, activities, program and financial results,
                 and financial condition;

             •   provide meaningful and relevant information about the performance of
                 an agency's programs; and

             •   disclose the extent to which programs are achieving their intended
                 objectives.

             USAID officials based the MD&A for fiscal year 2000 on the Agency’s
             revised Strategic Plan issued January 24, 2001 and draft Performance
             Overview Report.2

             Office of Management and Budget (OMB) Bulletin No. 01-02, "Audit
             Requirements for Federal Financial Statements," dated October 16, 2000,
             which was effective for fiscal years ending on or after September 30, 2000,
             requires auditors to gain an understanding of the components of internal
             controls relating to the existence and completeness assertions relevant to the

             2
              The Performance Overview Report was designed to meet the requirements of the
             Government Performance and Results Act of 1993. At the time of our audit, only a
             draft of this document had been prepared. The final Performance Overview Report
             was issued on April 3, 2001.




                                                                                                5
                   performance measures included in the MD&A and to report on those
                   internal controls that have not been properly designed and placed in
                   operation.



Audit Objectives
                   The Office of Inspector General’s (OIG) Performance Audits Division in
                   Washington, D.C performed this audit. It was designed to assess
                   USAID’s:

                   •   internal controls related to the performance measures contained in the
                       MD&A; and

                   •   compliance with applicable laws and regulations.

                   Appendix I contains a discussion of the scope and methodology for the
                   audit.



Audit Findings     The Fiscal Year 2000 Management Discussion and Analysis Section
                   Did Not Meet All Relevant Requirements

                   The section of USAID’s fiscal year 2000 financial statements entitled
                   Management Discussion and Analysis (MD&A) met some but not all of the
                   requirements outlined in the Office of Management and Budget (OMB)
                   Bulletin No. 97-01. This occurred primarily because USAID's Office of
                   the Chief Financial Officer (CFO) did not have an adequate plan to prepare
                   the MD&A and relied on performance information prepared by another
                   USAID bureau. However, this information had not been designed to meet
                   OMB requirements. As a result, the MD&A did not provide financial
                   statement users with a fair presentation of USAID's program performance.
                   The following paragraphs discuss these issues in detail.

                   The fiscal year 2000 MD&A was a 14-page report covering eight topics:
                   What is USAID? What Does USAID Do? How Does USAID Work?
                   Managing USAID for Results, USAID Program Results, Financial
                   Highlights, Management Controls, and Audit Follow-up Program. In the
                   following paragraphs, we describe the major requirements of OMB Bulletin
                   No. 97-01 and our assessment as to whether they were met in the fiscal
                   year 2000 MD&A.




                                                                                                6
Each performance goal should be clearly defined—In six brief
paragraphs, the MD&A summarized USAID's six principal areas and the
types of programs that were considered to be priorities in each area.3
However, goals for these areas were not clearly defined. That is, the
MD&A did not discuss the strategies and resources that USAID uses to
achieve its performance goals. For example, goals were described in
general terms such as “broad-based economic growth and agricultural
development” and “strengthened democracy and good governance.”

The significance of performance trends should be described by
providing important existing, currently known demands, risks,
uncertainties, events, conditions and trends, both favorable and
unfavorable, that affect the amounts reported in the financial
statements. The discussion of these current factors should go beyond a
mere description of the existing condition. The MD&A provided no
information as to trends, risks, or uncertainties that might affect the financial
statement. Although the document provided a statement of net cost of
operations with subtotals for each of the six principle areas, there was no
analysis of this information or linkage to fiscal year 2000 program
accomplishments.

Explain what needed to be done to improve program
performance, and compare program results to goals or
benchmarks, by discussing the strategies and resources USAID
used to achieve its performance goals. The MD&A discussed
the fact that USAID had decided to measure the success of its
programs by using self-assessments prepared by its many operating
units as to whether they met, exceeded, or failed to meet targets set
for 440 operating unit objectives. (The MD&A did not list these
objectives or provide examples. However, it did report that 152
objectives supported economic growth and agricultural
development goals, 107 supported democracy and governance
goals, 23 supported education and training goals, 80 supported
population and human health goals, 48 supported environmental
goals, and 30 supported humanitarian assistance goals.) The
MD&A simply stated that, overall, USAID met the targets set for


 3
  The six program areas were economic growth and agricultural development;
 population, health and nutrition; the environment; democracy and governance;
 education and training; and humanitarian assistance. USAID also has one strategic
 goal related to USAID's management.




                                                                                7
objectives established under each of its six goal areas in fiscal year
1999. There was no assessment for fiscal year 2000.

Provide a clear picture of actual and planned performance and
discuss both positive and negative results. Present explanatory
information that would help readers understand the
significance of the measures, and results, discuss any variations
from goals and plans in relation to the strategic plan, and
compare actual performance results to USAID's goals. The
MD&A did not provide targets or actual accomplishments for any
goal or supporting objective. The MD&A did not discuss any
negative results. As stated above, the MD&A reported that,
overall, objectives supporting all goals were met. The MD&A did,
however, provide a one-page list of outputs related to USAID’s
one strategic goal related to management. Examples of these
outputs include “a new program performance management
workshop curriculum was developed and implemented,” “85 New
Entry Professionals joined USAID during FY 2000,” “700
employees were trained in Acquisition and Assistance rules and
procedures,” and “Communication with partners was expanded.”
However, the MD&A did not compare these accomplishments to
planned targets or provide an assessment as to whether the
accomplishments were more or less than had been planned.

Explain the procedures that management has designed and followed to
provide reasonable assurance that the reported performance
information was reliable. The largest single section of the MD&A focused
on issues related to USAID’s decision to use operating unit-level objectives
to assess USAID's performance. The MD&A noted the advantages and
disadvantages of this decision and stated that a major drawback was the
large number of different objectives that could not be aggregated to convey
USAID's Agency-wide perspectives. The MD&A also provided an
analysis of USAID's policy that required operating units to periodically
assess their data collection procedures and the quality of the data collected.
The MD&A did not report whether these policies were effective.
However, recent audits have shown that, because operating units have not
always complied with this guidance, their performance reports and
performance assessments have not always been accurate, complete, or
consistently collected.




                                                                           8
We found that there were several reasons why the MD&A did not comply
with OMB guidelines. One reason was the fact that, unlike the CFOs of
many Federal agencies, USAID's CFO was not organizationally responsible
for collecting data and reporting on the performance of USAID's programs.
As a result, the CFO relied on the Bureau for Policy and Program
Coordination (PPC) to provide performance data for the MD&A, as it had
done in past years. As was the case in those years, the CFO’s
collaboration with PPC, with respect to the preparation of performance
data for the MD&A, was not entirely successful.

For example, in a prior OIG audit we determined that the collaboration
between the CFO and PPC leading to the MD&A for fiscal year 1999 was
unsuccessful. The resulting MD&A (1) did not meet OMB requirements,
and (2) was not prepared in sufficient time for it to be reviewed by our
office. To help prevent a recurrence of this situation, we recommended that
the CFO reach an agreement with PPC on the details of a comprehensive
plan to prepare the MD&A in an acceptable and prompt manner.4

In response, the CFO and PPC agreed on a plan for preparing the fiscal
year 2000 MD&A. In addition to assigning specific responsibilities to each
office, the plan established a schedule for the completion of major steps and
documents. For example, the CFO agreed to base the MD&A for fiscal
year 2000 on a draft version of a document that PPC planned to prepare to
meet the requirements of the Government Performance and Results Act.5

However, the plan did not require that the draft document contain all the
elements needed to meet OMB’s requirements for the preparation of the
MD&A and, in fact, it did not. The CFO did not obtain the missing
information from another source. As a result, the MD&A did not comply
with OMB Bulletin 97-01, and it did not provide financial statement users
with a fair presentation of program performance, particularly as it related to
$6.73 billion reported as the net cost of operations.6 We are, therefore,
making the following recommendation.

4
  Report No. 0-000-00-006-F, "Report on USAID's Consolidated Financial Statements,
Internal Controls, and Compliance for Fiscal Year 1999," February 18, 2000, discussed
this finding.

5
 The final version of this document, USAID’s Performance Overview Report for
Fiscal Year 2000, was issued on April 3, 2001.

6
 The net cost of operations, according to the fiscal year 2000 Statement of Net Cost,
was $6.73 billion. However, this amount has not been audited.




                                                                                   9
Recommendation No. 1: We recommend that USAID's Office of the
Chief Financial Officer, in collaboration with the Bureau for Policy
and Program Coordination, develop and implement a detailed plan to
prepare the Management Discussion and Analysis in accordance
with the reporting requirements included in current Office of
Management and Budget guidance. In addition to establishing
milestones, and assigning responsibilities, the plan should include
steps to ensure that the Management Discussion and Analysis:

•   explains the significance of performance trends,

•   compares program results to goals or benchmarks,

•   includes both positive and negative results, and

•   presents explanatory information that would help readers
    understand the significance of the measures, results achieved,
    and variations from goals and plans.

This plan should be updated regularly, as needed, to reflect any changes
that could prevent the MD&A from meeting OMB's requirements.
Because the CFO previously decided to rely on PPC for data needed to
comment on the performance of USAID's programs, these offices must
collaborate to the extent necessary to ensure that OMB requirements are
met.

Assessments of Program Results in the MD&A May
Have Been Based on Inaccurate or Incomplete Data

The discussion of program performance contained in the fiscal year 2000
MD&A was based on data contained in a draft of the USAID's
Performance Overview Report. That report was, in turn, based on annual
performance reports prepared and submitted by USAID operating units to
their respective bureaus. As a result, the discussion of performance in the
MD&A was subject to the same data quality weaknesses present in the
operating unit reports. Our audits of these reports have noted several data
quality weaknesses that we have attributed to the fact that operating units
do not always comply with USAID's guidance for performance monitoring
systems. As a result, the discussion and assessment of program
performance in the fiscal year 2000 MD&A may have been based on




                                                                           10
                     incomplete or inaccurate data. The following paragraphs discuss this issue
                     more fully.

                     The CFO decided to base the discussion of program performance
                     contained in the fiscal year 2000 MD&A on a draft version of USAID's
                     Performance Overview Report for fiscal year 2000. The performance data
                     contained in the draft and final Performance Overview Report, both
                     prepared by PPC, were based largely on data submitted in 1999 by
                     USAID's operating units in their Results Review and Resource Request
                     (R4) Reports. In these reports, operating units established targets and
                     compared actual performance to planned performance. In addition,
                     although USAID's financial statements for fiscal year 2000 focused on
                     USAID's financial position as of September 30, 2000, the MD&A
                     summarized program performance results achieved in fiscal year 1999 or
                     earlier. The MD&A did, however, report outputs related to management
                     goals that were accomplished in fiscal year 2000. The sources of these
                     data were not reported, but such data were not subject to the same
                     rigorous guidance for measurement and verification as were performance
                     data.

                     Because of the CFO’s late decision to use operating unit-level performance
                     data in the fiscal year 2000 MD&A, we did not have time to review the
                     credibility of data reported in the MD&A before it was issued in March
                     2001. However, we have recently completed audits of the quality of data in
                     seven R4 reports selected from among over 100 R4 reports that constituted
                     the total pool of reports on which the MD&A was based. (See Appendix
                     III for a list of these audit reports.) We have no reason to believe that the
                     seven audited R4 reports were different in any material respect from the
                     many unaudited R4 reports in the pool. Our audits showed that the seven
                     operating units did not always report accurate or complete data, prepare
                     adequate performance monitoring plans, perform adequate data quality
                     assessments, and disclose known data quality limitations in their R4 reports.
                     We have issued a separate report7 to USAID's management covering
                     operating unit compliance with USAID's guidance for the preparation of
                     performance monitoring plans and data quality assessments. Therefore, we
                     did not make a recommendation related to these issues in this report.



Management
                 7
                 Report No. 9-000-01-005-P, "Audit of Performance Monitoring for Indicators
Comments and     Appearing In Selected USAID Operating Units' Results Review and Resource Request
Our Evaluation   Reports," dated September 27, 2001, discussed this finding.




                                                                                               11
In response to our draft report, management officials from both the Office
of the Chief Financial Officer (CFO) and the Bureau for Policy and
Program Coordination (PPC) indicated that they generally agreed with the
sole recommendation in the report. With regard to that recommendation,
management indicated that PPC, in collaboration with other bureaus and
offices, including the CFO, was revising and updating the Agency’s Annual
Performance Plan (APP), which included a methodology for establishing
better performance measures than were available under previous plans.
Management also stated that, while the fiscal year 2001 MD&A would be
based on the draft Annual Performance Report (APR) already submitted to
the OIG, the fiscal year 2002 MD&A would be produced using data
collected in new mission annual reports (previously known as “R4”
reports). However, management did not explain how these changes would
address certain problems noted in our report. For example, management
did not clearly state that either the APP or the new mission annual reports
would assign responsibility (to the Office of the CFO or to PPC) for
drafting the MD&A in a manner that would both meet OMB form and
content requirements and be completed in sufficient time to be reviewed by
our office. Nor did management clearly state whether these changes would
allow USAID to report timely data in its MD&A. Therefore, we do not
consider the recommendation to have received a management decision and
request that the Office of the CFO and PPC, within 30 days, provide
additional information, relating more specifically to our recommendation.

With regard to our second finding, management stated that it disagreed with
our statement that program performance information reported in the fiscal
year 2000 MD&A may have been based on inaccurate or incomplete data.
Management requested that we re-write this finding to explain measures the
Agency has taken to improve performance data quality. We believe that
our assessment of the fiscal year 2000 MD&A accurately reflects the
situation at the time of the audit, which, as noted in our report, covered
performance data for fiscal year 1999. Although USAID management has
recently issued improved guidance and conducted training to help operating
units collect and report performance data that meet specific quality
standards, those changes did not take place early enough to affect
performance results reported in the fiscal year 2000 MD&A. Further,
recent audit work continues to show inconsistent compliance with Agency
guidance. Therefore, we have not modified this section of our report.




                                                                         12
                                                                                   Appendix I


Scope and     Scope
Methodology
              We conducted this audit in accordance with generally accepted government
              auditing standards. The purpose of our work was not to form an opinion on
              the information reported in the Management Discussion and Analysis
              (MD&A). Instead, it was to assess USAID's:

              •   internal controls related to the performance measures contained in the
                  MD&A; and

              •   compliance with applicable laws and regulations.

              We limited our work to assessing USAID/Washington’s internal controls
              relating to the MD&A, but did not attempt to form an opinion on the system
              of internal controls taken as a whole. Instead we were to report on those
              significant control policies and procedures that had not been properly
              designed or placed in operation and those that we found to be ineffective.

              We commenced our fieldwork by gaining an understanding of the design of
              the significant internal controls relating to the existence and completeness
              assertions as required by the Office of Management and Budget Bulletin
              No. 01-02. Our scope was impaired because we selected and reviewed a
              sample of agency-level performance indicators, which USAID officials
              informed us would be reported in the MD&A. After our fieldwork was
              almost complete, USAID officials informed us that the performance
              information previously identified would not be reported in the MD&A, but
              instead operating-unit-level indicators would be reported. That discussion
              occurred too late for us to complete our work. However, because the
              performance information presented in the MD&A was based on
              performance information previously audited by the OIG, we were able to
              comment on the internal controls over the performance information reported
              in the MD&A as referenced in those reports.

              The fieldwork was conducted in Washington, D.C., from July 20, 2000,
              through February 26, 2001.




                                                                                           13
Methodology

We attempted to assess USAID's:

•   internal controls related to the performance measures contained in the
    fiscal year 2000 MD&A, and

•   compliance with applicable laws and regulations.

Our review was primarily based on the information presented in the
performance goals and results section of the MD&A. We also performed a
limited review of the "Mission and Organizational Structure" section of the
MD&A. We selected a judgmental sample of six performance indicators
identified in the MD&A—one from each program goal area. Generally, we
did not assess the quality of the performance indicators themselves. We did
not attempt to verify the accuracy of data in the MD&A and performed
only limited tests on the data itself to assess the controls established by
USAID.

We reviewed the November 14, 2000, draft version of USAID's MD&A;
USAID's draft Performance Overview Report for fiscal year 2000; and
seven OIG audit reports of operating units' R4 reports. In addition, we
interviewed responsible USAID officials and USAID contractors.




                                                                             14
                                                                                                    Appendix II



Management
Comments




 To:    Dianne Rawl, Director, IG/A/PA

 From: Ken Schofield, PPC/DAA
       Michael T. Smokovich, FM/CFO

 Subject: FY 2000 Management Discussion and Analysis Audit

 PPC and FM have reviewed the subject audit and its sole recommendation, which is that:

 We recommend that the Chief Financial Officer in collaboration with the Bureau for Policy and Program
 Coordination prepare a detailed plan to prepare USAID’s management discussion and analysis in
 accordance with the Office of Management and Budget Bulletin No. 97-01. That plan should establish
 milestones, assign responsibilities, and establish a methodology for selecting performance measures which
 must be related to the Agency’s strategic plan—which credibly measures the results of Agency programs,
 including both positive and negative results. In addition, the plan should require the management discussion
 and analysis to:

        •   Explain the significance of trends,
        •   Compare program results to goals or benchmarks,
        •   Show variations from goals and plans, and
        •   Explain what needs to be done to improve program performance.

 This plan should be updated annually as needed.

 1.      In general, PPC and the CFO agree with the recommendation. PPC, in collaboration with other
 bureaus and offices, including the CFO, is currently concluding its revision and updating of the Annual
 Performance Plan (APP), which establishes milestones, assigns responsibilities, and establishes a
 methodology for selecting performance measures. As in the past, the MD&A will be produced using the
 data collected in mission annual reports (previously known as the ‘R4’). We note, however, the following:
        •    One of the objectives of the current APR/APP is to establish better performance measures than
             were available under the previous plans. It may take time to develop the new trends and goals
             and benchmarks.
        •    The 2001 MD&A will be based on the draft APR submitted to IG; the 2002 MD&A will
             incorporate changes resulting from this audit within the replacement R4 process, the resulting
             APR, and flow into the MD&A.

2.       PPC disagrees with the statement that “Program Performance Information in USAID’s MD&A
May Have Been Based on Inaccurate or Incomplete Data.” The standard for determining “inaccurate or
incomplete” appears to be that USAID’s performance management system be 100% reliable in all aspects.
This section of the report uses versions of the phase “operating units did not always report accurate or
complete data.” This is the same language that has been used by the OIG for the past four years, and does
not reflect the fact, documented in several OIG briefings, that USAID’s performance information is steadily
improving. The use of the word “always” also sets a standard that USAID can never meet, nor should
attempt to meet. It would be too expensive to attempt to reach 100% reliability, nor is it necessary to have
100% reliability to manage properly.

Over the past year, the OIG has recognized that USAID has made marked improvements in its
performance management systems, including the recognition in the summary of the last round of
performance audits that the OIG’s recommendations on how to improve these systems were closed even
before they were issued.

Therefore, we request that the section entitled “Program Performance Information In USAID’s MD&A May Have Been
Based on Inaccurate or Incomplete Information” be re-titled to “Performance Information in … is Improving” and that this
section be re-written to explain measures that have been taken, and documented to improve data quality.




                                                                                                                      16
                                                                                    Appendix III

               Below is a list of the seven OIG audit reports referenced in this report.
Prior OIG
Audits of R4   Report No. 1-512-00-005-P, "Audit of USAID/Brazil’s Performance
Reports        Monitoring for Indicators," July 17, 2000.

               Report No. 9-000-00-003-P, "Audit of Global Bureau's Center for
               Economic Growth and Agricultural Development's Performance Monitoring
               for Indicators Appearing in the Fiscal Year 2002 Results Review and
               Resource Request Report," September 26, 2000.

               Report Number 4-612-01-001-P, "Audit of USAID/Malawi’s
               Performance Monitoring for Indicators Appearing in the Fiscal Year 2002
               Results Review and Resource Request Report," October 19, 2000.

               Report No. B-186-01-003-P, "Audit of USAID/Romania’s Performance
               Monitoring for Indicators," February 26, 2001.

               Report No. 5-367-01-002-P, "Audit of USAID/Nepal's Performance
               Monitoring for Indicators Appearing in the Fiscal Year 2002 Results
               Review and Resource Request Report," March 9, 2001.

               Report No. 6-263-01-003-P, "Audit of USAID/Egypt’s Performance
               Monitoring for Indicators Appearing in the FY 2002 Results Review and
               Resources Request Report," March 20, 2001.

               Report No. 7-641-00-007-P, "Audit of USAID/Ghana’s Performance
               Monitoring for Indicators Appearing in the FY 2001 Results Review and
               Resource Request," June 30, 2000.




                                                                                           17
